                                                          The Inspector General           Office of Inspector General
U.S. Departmentof                                                                         Washington, D.C. 20590
Transportation
Office of the Secretary
of Transportation




 April 6,2006



 The Honorable Christopher "Kit" Bond                    The Honorable Joe Knollenberg
 Chairman                                                Chairman
 Subcommittee on Transportation,                         Subcommittee on Transportation,
 Treasury, the Judiciary,                                Treasury, Housing and Urban
 Housing and Urban Development,                          Development, the Judiciary,
 and Related Agencies                                    and District of Columbia
 Committee on Appropriations                             Committee on Appropriations
 United States Senate                                    United States House of Representatives
 Washington, DC 205 10                                   Washington, DC 205 15

  The Honorable Patty Murray                             The Honorable John W. Olver
  Ranking Member                                         Ranking Member
  Subcommittee on Transportation,                        Subcommittee on Transportation,
  Treasury, the Judiciary,                               Treasury, Housing and Urban
  Housing and Urban Development,                         Development, the Jud.iciary,
  and Related Agencies                                   and District of Columbia
  Committee on Appropriations                            Committee on Appropriations
  United States Senate                                   United States House of Representatives
  Washington, DC 205 10                                  Washington, DC 205 15

  Dear Chairmen Bond and Knollenberg and Ranking Members Murray and Olver:

  Pursuant to the requirements of the Fiscal Year (FY) 2006 Appropriations Act
  (the Act) hnding the Department of ~rans~ortation,'      this report presents our
  estimates of the savings2 Amtrak has achieved from operational reforms. The law
  mandates that these reforms include, but not be limited to, modifications to food
  and beverage service and sleeper class service. Our office is required to report
  quarterly to your Committees on whether or not, and to what extent, Amtrak has
  achieved savings from operational reforms. Further, under the Act, unless we
  certify that Amtrak has achieved operational savings by July 1,2006, Amtrak will

  1
      Transportation, Treasury, Housing and Urban Development, the Judiciary, District of Columbia, and
      Independent Agencies Appropriations Act, 2006 (TTHUD); Public Law No. 109-1 15.
  2
      Defined throughout as net operating savings, or the reduction in net operating losses.


  CC-2006-036
be prohibited from using appropriated funds to subsidize the net losses from food,
beverage, and sleeper car service on any Amtrak route.

Amtrak’s Board of Directors and current management seem committed to reform
and some operational reforms are underway. However, most of Amtrak’s
operational reform initiatives are still in the planning stage, with the heavy lifting
still to come. Current reform efforts will require many years of sustained
commitment to fully implement. To achieve credible reductions to its Federal
operating subsidy, Amtrak must be expansive and aggressive in both the scope and
pace of implementing long-term, structural operational reform.

Summary

Our first quarterly report, issued January 5, 2006, established an FY 2006
operating subsidy baseline of $586 million. That is, Amtrak’s planned operational
reforms reflected in its Board-approved FY 2006 budget would result in a
projected operating loss of $586 million. To live within its FY 2006 operating
subsidy of $485 million,3 Amtrak needs to reduce this projected operating loss by
an additional 17 percent, or $101 million. Accordingly, our analysis will
distinguish between reforms relied on to reduce losses to the baseline level (in the
baseline) and those reforms Amtrak will rely on to close the $101 million budget
gap (not in the baseline).

Savings from Operational Reforms. Amtrak’s efforts to implement operational
reforms in 15 areas are expected to reduce costs and increase revenues in 2006 and
beyond. All the reforms are described in Appendix A.

Our certification in July on whether or not Amtrak has achieved savings from
operational reforms will focus on those reforms, not included in the $586 million
baseline, that will help Amtrak operate within its appropriation and reduce long
run operating costs. As shown in Table 1, Amtrak expects to achieve $6.9 million
in savings from these operational reforms. Amtrak estimates that through the end
of January, it achieved only $214,000 in savings from them.




3
    The FY 2006 appropriations law provided $495 million in operating grants to Amtrak. The amount
    available to Amtrak for operations after the 1 percent across-the-board recision and the $5 million
    dedicated to the development of a managerial cost accounting system was effectively reduced to $485
    million.


CC-2006-036                                                                                          2
Table 1: Summary of Expected Savings From Amtrak Operational Reforms
        Year-to-Date (YTD) through January 2006 ($ in thousands)

                                               Estimated Estimated               Actual      Variance
Amtrak Operating Savings                        FY 2006    YTD4                   YTD           +/-
Savings not in $586 million baseline5              6,917              214          214                0
Savings in $586 million baseline                  32,362            9,043       18,952            9,909
Total                                             39,279            9,257       19,166            9,909

Our analysis relies on data generated by Amtrak’s current revenue and cost
accounting systems which do not readily support reporting and analysis of
financial data on an initiative-level basis. We caution that the data provided by
Amtrak and relied upon for this report are unaudited. We continue to work with
Amtrak to ensure that the savings estimates are reliable so that we can properly
express our opinion in July on whether Amtrak has achieved savings from
operational reform.

Overall Financial Performance. Amtrak’s overall financial performance through
February has been better-than-expected. It has achieved $70.3 million of the
$101 million in savings it must realize to live within its FY 2006 appropriated
operating subsidy (see Figure 1). However, it is too early to tell whether Amtrak
can sustain this improved performance through the end of the fiscal year. Further,
it would be a mistake for Amtrak to allow its improved performance to lessen the
attention and commitment it makes to achieve long-term operational reforms.

Amtrak plans to close the remaining budget gap with operational reforms, one-
time actions and budget adjustments, by spending from the FY 2005 year-end cash
reserves, and through better-than-projected revenue and cost performance.
Significantly, only a small portion of the $101 million in needed FY 2006 savings
is expected to come from operational reforms. Short-term gap-closing actions will
not reduce Amtrak’s need for subsidies in FY 2007 or beyond. Rather, only
sustainable reforms, which require structural changes in the way passenger rail
service is delivered, can accomplish that goal.




4
    Amtrak provided data at the operational reforms level through January 2006.
5
    On March 16, we testified before the Senate Appropriations Committee that our preliminary analysis
    indicated Amtrak expected to achieve about $20 million from savings not included in the baseline. This
    table reflects updated savings estimates from Amtrak and a refinement to our estimate of savings from
    operational reforms in the baseline and not in the baseline.


CC-2006-036                                                                                             3
                                              Figure 1: Amtrak Operating Loss
                                            FY 2006 Year-to-Date through February

                           Oct       Nov       Dec        Jan       Feb            Mar     Apr      Ma      Jun      Jul        Au      Sep
                      0
                              (39)
                                       (65)
                           (51)                  (109)

                                     (99)                   (163)
                                              (150)                       (212)
                   (200)

                                                                          } $70.3 million savings to date
   $ in millions




                                                         (219)


                                                                    (283)

                                                                                  (333)
                   (400)
                                                                                          (375)                               $485 million
                                                                                                    (419)                   Federal Subsidy
                                                                                                            (451)   (491)
                                                                                                                               (535)
                   (600)
                                                                                                                                       (586)
                                                                 Actual           Baseline Budget




As part of its operational reforms, Amtrak needs to reduce the cost of providing
long-distance service, particularly, sleeper service. Based on what Amtrak has
achieved to date, significant savings in FY 2006 through operational reforms in
this area should not be expected. Amtrak is not required to submit a “Get Well”
plan for improving the performance of the bottom third performing trains (based
on performance metrics to be agreed on by both parties) to the Federal Railroad
Administration until July 1, 2006.

In July 2005, we reported that the operating loss per sleeper class passenger on
some routes was more than $300 per passenger. We concluded that Amtrak could
save between $75 million and $158 million in annual operating losses by
eliminating sleeper car service, outsourcing food and beverage service, and
eliminating other amenities on long-distance trains. We recommended that
Amtrak experiment with reforming its long distance sleeper service through pilot
projects.

Structure of this Letter

In our January report, we stated that we would evaluate Amtrak’s net operating
savings on four levels of detail: (1) corporate, (2) business line, (3) route, and
(4) strategic reform initiatives, that is, operational reforms. This letter sets the
stage by first discussing the $586 million subsidy baseline then reporting on the
four levels mentioned above. The discussion of strategic initiatives is divided into


CC-2006-036                                                                                                                                    4
two sections: operational reforms not included in the $586 million subsidy
baseline and operational reforms included in the baseline.

$586 Million Subsidy Baseline

The $586 million subsidy baseline reflects Amtrak’s expected operating loss based
upon the FY 2006 budget approved by its Board of Directors in September 2005.
This baseline takes into account planned savings from operational reforms begun
in FY 2005 and planned for FY 2006, before the issuance of our January report.

To live within the FY 2006 appropriated Federal operating subsidy, Amtrak must
reduce its operating loss from the $586 million subsidy baseline to the
appropriated subsidy of $485 million. This will require savings of $101 million in
addition to the operational reforms included in the $586 million baseline.

Corporate Level Results

Through February 2006, Amtrak’s operating loss, excluding depreciation and net
interest expense, was $70.3 million less than what was anticipated relative to the
$586 million baseline. As shown in Figure 1, Amtrak must maintain and improve
upon these savings to date to live within its FY 2006 operating subsidy of $485
million. The improved financial performance to date primarily reflects fare
increases, lower labor costs due to a reduction in authorized headcount, and about
$10 million in savings from operational reforms not accounted for in the baseline.

Amtrak’s general fare increases and the implementation of revenue management
of the NEC Regional and Acela services6 increased ticket revenues by
$14.4 million above projected levels. This accounted for most of the $23.4 million
increase in total operating revenues above projected levels. However, it is too
early to tell whether Amtrak can maintain this performance. For example, for the
first 5 months of FY 2006, Acela revenue fell by 1.6 percent compared to the first
5 months of FY 2005. At the same time, revenues for corridor services were 16
percent higher and long distance trains were 7.5 percent higher.

During the same period, total headcount was 1,310 lower than planned and
accounted for $21.1 million of Amtrak’s $34 million reduction in total operating
costs below projected levels. Miscellaneous expenses were $17.6 million less than
projected and fuel and power were $5.5 million above projected levels.


6
    Amtrak extended its current revenue management practices to the NEC Regional and Acela trains.
    Amtrak is now charging variable fares, based on demand levels rather than the previous peak/non-peak
    fare approach).


CC-2006-036                                                                                                5
Business Line Results

As shown in Table 2, Amtrak reports operating results by each of its business
lines. Most of Amtrak’s improved performance to date comes from the National
Train System (core) Operations — the NEC, State-supported and other Corridors,
and Long Distance Services business lines. Through February 2006, losses from
Amtrak’s core operations were $41.8 million less than expected, relative to the
$586 million subsidy baseline. Amtrak achieved additional savings of
$28.5 million from its Infrastructure Management, Ancillary Business (commuter,
reimbursable and commercial operations), and Unallocated Systems (overhead)
business lines.

    Table 2: Amtrak Net Profit/(Loss), excluding Federal Operating Subsidies7
              FY 2006 - Year to Date through February ($ in Millions)

                                                                          Baseline            +/- to
    Business Line                                         Actual
                                                                          Budget             Baseline
    National Train System Operations                      (146.4)          (188.2)                41.8
       NEC                                                    91.2             72.6                18.6
       State Supported and Other Corridors                  (40.2)           (47.5)                 7.3
       Long-Distance Service                              (197.2)           (213.2)                16.0
    Infrastructure Management                              (31.4)            (40.4)                 9.0
                          8
    Ancillary Business                                       36.9              28.7                 8.2
    Unallocated System                                     (71.5)            (82.8)               11.3
    Total                                                 (212.4)          (282.7)                70.3

The NEC operations showed an operating profit (excluding interest and
depreciation) of $91.2 million through February 2006. State supported and other
corridor operations had an operating loss of $40.2 million through February and
losses for Amtrak’s long distance service were nearly $200 million.

Route Level Results

To date, Amtrak’s reform initiatives have targeted only a few individual routes,
primarily as pilot projects. For example, in December 2005 and January 2006,
Amtrak initiated a food and beverage pilot project to evaluate customer response
to pre-plated and reheatable meals. The pilot project, which went into full

7
    Amtrak reports these financials on an earnings before interest, taxes, depreciation and OPEBs (EBITDO)
    basis
8
    Commuter, Reimbursable, and Commercial operations


CC-2006-036                                                                                               6
implementation in February, was conducted on four long distance trains - Capitol
Limited, Texas Eagle, City of New Orleans, and the Sunset Limited. We will
begin our evaluation of the pilot projects after Amtrak reports its March financial
results. Our evaluation will determine whether savings resulted from the
programs.

As part of its food and beverage initiative, Amtrak eliminated all food service on
the Empire Corridor from New York, New York to Albany, New York and closed
the Albany Commissary. Amtrak reported savings for FY 2006 through
January 2006 of $339,000 with a full year of savings projected at $1.1 million.

Amtrak’s enhanced Empire Builder service was reported to achieve savings of
$1.8 million through January 2006 and is expected to achieve full year operating
savings of $2.8 million, net of additional food costs. However, last year this train
lost $45 million and has lost $21.5 million through January of FY 2006.

Strategic Reform Initiatives (Operational Reforms)

Amtrak has identified 15 operational reforms that focus on structural changes
necessary to reduce long-term annual operating losses (see Appendix A). Amtrak
expects to achieve a total of $39.3 million in savings from these reforms (see
Table 1).

• Most of Amtrak’s proposed operational reforms are not included in our
  $586 million subsidy baseline. Amtrak expects savings of $6.9 million in
  FY 2006 from these operational reforms. These reforms primarily target food
  and beverage and overhead functions.

• A limited number of the reforms were underway or planned when we issued
  our January 2006 report and those are accounted for in the $586 million
  baseline. Amtrak expects to achieve $32.4 million in savings from these
  operational reforms.        These reforms include implementing revenue
  management in the NEC, efficiency improvements in fleet maintenance and
  facilities, labor productivity, reduced overhead costs, and increased revenues
  from food and beverage service.

Operational Reforms Not Included In the Subsidy Baseline

Through January 2006, Amtrak estimated that it had achieved only $214,000 of
the $6.9 million in projected savings from operational reforms not included in the
baseline (see Appendix B). Additional operational reforms will be critical in
Amtrak’s efforts to achieve the $101 million in savings needed to live within its


CC-2006-036                                                                       7
appropriated Federal subsidy. Our July certification will focus on these savings.
These operational reforms include:

• Food and Beverage Reform. Amtrak expects to achieve $4.8 million in net
      operating savings this year from several modifications to its food and beverage
      service. The largest benefit is expected from implementing its new Simplified
      Dining program, a program that provides pre-plated meals that require only
      reheating in a convection oven. It is expected to reduce diner car staff and
      associated labor costs by 35 percent through the elimination of two on-board
      service positions in the diner car. In addition, Amtrak plans to offer
      continuous, restaurant-style dining service and enhanced customer service,
      which is expected to increase food revenues.

      On February 15, 2006 Amtrak’s Simplified Food Service program was
      implemented on four long-distance trains9 and is expected to be expanded to
      the remaining long-distance trains (except Auto Train and Empire Builder) by
      June 2006. Amtrak’s actual results through February 2006 shows costs for
      food supplies were about $2.5 million lower than budgeted and $2.6 million
      lower than the first 5 months of FY 2005, and total on-board services costs
      were $1.8 million below budget and $2.2 million lower than the same period
      last year.

      Amtrak expects to achieve cost savings of $938,000 in FY 2006 from the
      renegotiated Gate Gourmet contract. Through January 2006, Amtrak has
      achieved only $104,200 in cost savings from this initiative.

    • Corporate Overhead. Outsourcing information technology, combined with
      lower software, storage, and communications costs, and increased management
      controls are expected to save $1.6 million in FY 2006. Capturing energy
      management efficiencies through enhanced oversight of utility expenditures is
      expected to save another $0.5 million in FY 2006. Amtrak estimates $110,000
      in savings from energy management through January 2006.

    • Other Operational Reforms.     Several additional operational reforms are
      described in Appendix A. However, none of these are expected to generate
      savings in FY 2006 and only two have an implementation timetable and long-
      term savings projections.




9
    Simplified food service was implemented on the City of New Orleans, the Texas Eagle, the Sunset
    Limited, and the Capital Limited trains.


CC-2006-036                                                                                           8
Operational Reforms Included in the Subsidy Baseline

Amtrak reported about $19 million in savings through January 2006 from
operational reforms that were included in the $586 million subsidy baseline (see
Appendix B). Progress-to-date is summarized below:

•   Food and Beverage Reform. During FY 2005 Amtrak renegotiated contracts
    with its food vendors, which resulted in $723,893 in cost savings, and it
    expects an additional cost reduction of $380,416 in FY 2006. Eliminating
    food service on the Empire Corridor (between New York, New York and
    Albany, New York) allowed Amtrak to close the Albany commissary in
    July 2005 and opens the potential to realize $1.1 million in operating savings
    in FY 2006. Through January 2006, Amtrak reported a net savings of
    $339,000 in labor costs from the reform.

• Train Operations. Amtrak has several sub-initiatives underway, including
    consolidation of facilities and work functions and train fuel conservation.
    Specifically,
    - In October 2005, Amtrak consolidated its Amfleet maintenance from
       Albany to Washington, D.C. Through January, Amtrak reported a savings
       of $0.2 million with expected additional cost savings of $1.2 million
       through the consolidation of additional work efforts.
    - Additional initiatives are underway to improve labor productivity by
       reducing allowable overtime in Amtrak’s Mechanical Division, and a
       4 percent reduction in core straight time wages in Amtrak’s Engineering
       Division, is budgeted to save $5.2 million in FY 2006. Through
       January 2006, Amtrak reported savings of about $2.5 million.
    - Through January 2006, Amtrak reported about $1.2 million in additional
       labor cost savings from improved crew management in the NEC.
    - Amtrak expects to reduce consumption of train fuel gallons by 1 percent
       through improved locomotive handling and utilization, which should result
       in an estimated annual operating cost savings of $1 million. Through
       January 2006, Amtrak has achieved a better-than-expected estimated cost
       reduction of $1.8 million, based on fuel cost of $1.83 per gallon. However,
       these savings were offset by an increase in the average price per gallon for
       fuel and resulted in core fuel costs of $2.9 million higher than budgeted.

• Corporate Overhead. Overhead efficiencies implemented this year include a
    reduction in outside legal fees, software, and communications costs. Savings
    in FY 2006 are estimated at $3.3 million, with Amtrak reporting just over



CC-2006-036                                                                      9
   $1 million in savings from reduced legal fees through January 2006. As of
   January 2006, it had not reported savings in software and communications.

• Long Distance Train Service. As part of an initiative to reposition the Empire
   Builder service as a luxury service, Amtrak rolled out an enhanced service
   offering in August 2005. The enhanced service included refurbished sleeper,
   coach, and lounge cars; food and beverage upgrades, including additional on-
   board services personnel; and a refocus on customer service. Revenue on the
   Empire Builder was about 20 percent higher ($2.6 million) on a cumulative
   year-over-year basis through February 2006 with only a 3.6 percent increase in
   ridership. Consequently, Amtrak projects a decrease in net operating losses of
   about $2.8 million in FY 2006 from this initiative. Operating revenues through
   January were $1.5 million, excluding the cost of equipment overhaul.
   However, the service continues to lose money. Last year this train lost
   $45 million and has lost $21.5 million through January of FY 2006. Amtrak
   has no plans to expand this enhanced service to any of its other long-distance
   routes.

• NEC Operations. In October 2005, Amtrak began revenue management on
   NEC’s Regional Service and on the Acela in February 2006. It now charges
   variable rates on Acela and Metroliner services, with prices 15 percent lower
   during off-peak travel times and 15 percent higher for last minute, peak travel.
   Amtrak’s FY 2006 budget assumes $15 million will be realized from revenue
   management of the NEC trains.

Conclusion

Amtrak’s financial performance to date in FY 2006 is $70.3 million better-than-
expected. However, Amtrak has achieved only a minor amount of savings from
operational reforms not included in the $586 million subsidy baseline.

We continue to have concerns regarding Amtrak’s significant Federally subsidized
losses on its food and beverage and sleeper service. Although it has begun to
reform its food service provision, we have yet to see a plan that projects Amtrak to
achieve a near breakeven provision of food service on its trains.

Additionally, Amtrak needs to achieve savings from long-distance service,
particularly, its sleeper service. In July 2005, we reported that the operating loss
per sleeper class passenger on some routes was more than $300 per passenger.
We concluded that Amtrak could save between $75 million and $158 million in
annual operating losses by eliminating sleeper car service, outsourcing food and
beverage service, and eliminating other amenities on long-distance trains.
Currently, Amtrak has no plan in place to significantly restructure any of these

CC-2006-036                                                                      10
services. Amtrak must be more expansive and aggressive in the scope and pace of
implementing long-term, structural operational reform if it is to achieve credible
reductions to its required Federal operating subsidy.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of the Board of Amtrak. If you have any
questions concerning this letter, please call me at (202) 366-1959, or David E.
Tornquist, Assistant Inspector General for Competition and Economic Analysis, at
(202) 366-9970.

Sincerely,




Todd J. Zinser
Acting Inspector General

Enclosures




CC-2006-036                                                                     11
                  Appendix A: Amtrak’s Operational Reforms Description
        In January 2006, Amtrak presented 15 operational reforms that focus on structural
        changes designed to reduce Amtrak’s long-term annual operating losses. These
        reforms are Amtrak’s response to congressional direction to achieve savings
        through operational reforms.         To date, Amtrak has provided us with
        implementation plans and estimated net operating cost savings for only four of the
        reform initiatives. It is still developing implementation plans for the remaining
        operational reforms.

                         Table A: Amtrak’s Proposed Operational Reforms

                                                                          Estimated
Reforms                                                                                   Implementation
                      Objective                                        Annual Savings
Initiative                                                                                    Period
                                                                        ($ in millions)

Corporate

                      Reforms aimed at reducing losses through
1. Food and           enhanced service flexibility, redesign of                              FY 2006-
                                                                            34-76
   beverage           equipment, and outsourcing of certain                                  FY 2010
                      services

                      Adopt reliability centered maintenance,
                                                                                             FY 2006-
2. Mechanical         consolidate facilities, and outsource selected        30-75
                                                                                             FY 2012
                      activities

                      Modernize ticket issuance, collection, and
3. Customer                                                                                  FY 2006-
                      reporting processes and improve service               12-25
   service                                                                                   FY 2010
                      quality measurement and delivery

                      Develop more accurate and timely
4. Management                                                                                FY 2006-
                      information on costs of routes, individual             12
   information                                                                               FY 2012
                      activities, and functions


                      Address ADA compliance, state-of-good-
5. Stations                                                                 TBD                TBD
                      repair, and reduce station operating costs


                      Reduce ticketing costs by reducing staffing,
6. Call Centers       increasing utilization of lower cost                  TBD                TBD
                      distribution channels, and outsourcing

                      Reduce unit costs of corporate support
7. Overhead           functions through selective outsourcing,
                                                                            TBD                TBD
   functions          staffing reductions, skills development, and
                      greater use of technology.



        CC-2006-036                                                                           A-1
                    Table A: Amtrak’s Proposed Operational Reforms (cont.)


                       Improve on-time performance of Acela and
8. Service
                       NEC trains through operational modifications      TBD   TBD
   reliability
                       and targeted investments

                       Reduce unit costs and increase flexibility by
                       negotiating new labor agreement that
9. Labor
                       eliminate work rule and outsourcing               TBD   TBD
   contracts
                       restrictions, and base wages on market
                       levels
                       Enhance financial performance of other
                       activities and functions through continued
10. Ongoing
                       business improvements (e.g., operating crew       TBD   TBD
    efficiencies
                       optimization, maintenance of way
                       productivity)
Business Line

                       Improve performance of all routes by
                       redefining sub-brands, restructuring,
1. Long Distance                                                         TBD   TBD
                       services/routes, selected luxury outsourcing,
                       and corporate initiatives

                       Boost financial contribution through
2. NEC                 improved load factors, adjusted service
                                                                         TBD   TBD
   Operations          patterns, re-launching sub-brands, trip time
                       investments, and corporate initiatives

                       Improve competitiveness of state services,
                       establish pilot competition project and
3. Corridors                                                             TBD   TBD
                       transition states to full cost recovery for all
                       corridor routes

                       Optimize use of fleet, maximize load factors,
4. Fleet               and increase revenues by improving current
                                                                         TBD   TBD
   Utilization         train consist efficiency and retiring or
                       redeploying excess equipment


                       Develop a long-term capital master plan and
                       operate NEC efficiently on behalf of all
5. Infrastructure                                                        TBD   TBD
                       users, while establishing a fair sharing of
                       operating and capital costs among all users




         CC-2006-036                                                           A-2
      Appendix B: Amtrak’s Savings to Date from Operational Reforms
In our January 2006 report, we stated that we would establish sub-baselines that
reflect savings from specific initiatives. Since that time, based on our work with
Amtrak, we have decided to report on a broader framework of sub-baselines.
Table B-1 presents the estimated annual savings and year to date savings for
FY 2006.

              Table B-1: Summary of Amtrak Savings by Sub-Baseline
                Year-to-Date through January 2006 ($ in thousands)
                                     Estimated     Estimated     Actual
Amtrak Net Operating Savings          Annual          YTD         YTD       Variance
                                      Benefit       Benefit      Benefit       +/-
Corporate Initiatives                  20,430          5,280      8,164      2,884
Food and Beverage                       7,577         1,800       2,442        642
Train Operations                        7,406         2,470       4,551      2,081
  Fleet Maintenance and Facilities      1,166           389         255      (134)
  Labor Efficiencies                    5,227         1,743       2,475        732
  Fuel Conservation                     1,013           338       1,821      1,483
Customer Service                            --            --          --         --
Management Information                      --            --          --         --
Stations                                    --            --          --         --
Call Centers                                --            --          --         --
Corporate Overhead                      5,447         1,010       1,171        161
  Law Department Efficiencies           1,400           900       1,061        161
  Technology Efficiencies               3,547             0           0          0
  Energy Management                       500           110         110          0
Service Reliability                         --            --          --         --
Labor Contracts                             --            --          --         --
Business Line Initiatives              18,849         3,977      11,002      7,025
Long Distance Train Service             2,793           785       1,824      1,039
  Sleeper Car Service                       --            --          --         --
  Restructuring                             --            --          --         --
  Redefining Service Offerings          2,793           785       1,824      1,039
NEC Operations                         16,056         3,192       9,178      5,986
  Fare and Revenue Management          15,000         3,000       8,000      5,000
  Labor Efficiencies                    1,056           192       1,178        986
  Other                                     --            --          --         --
State-Supported & Other Corridors           --            --          --         --
Fleet Utilization                           --            --          --         --
Infrastructure                              --            --          --         --
Total                                  39,279         9,257      19,166      9,909




CC-2006-036                                                                   B-1
Amtrak Operational Reforms Included in the $586 Million Baseline

Table B-2 presents the reduction in net operating costs from Amtrak’s operational
reforms included in the $586 million baseline. Amtrak has achieved about
$19 million in reduced net operating costs year-to-date through January 2006,
more than half the expected reduction.

              Table B-2: Summary of Reforms Included in Baseline
               Year-to-Date through January 2006 ($ in thousands)
                                     Estimated    Planned     Actual
Amtrak Net Operating Savings          Annual        YTD        YTD      Variance
                                      Benefit     Benefit     Benefit      +/-
Food & Beverage                         2,789      1,696      2,338        642
  Empire Corridor                       1,124        271        339         68
  Outsourcing & Contracts                 380        254        254          0
  Menu Pricing                          1,285          0          0          0
Train Operations                        7,406      2,470      4,551      2,081
  Fleet Maintenance and Facilities      1,166        389        255      (134)
  Labor efficiencies                    5,227      1,743      2,475        732
  Fuel Conservation                     1,013        338      1,821      1,483
Corporate Overhead                      3,318        900      1,061        161
  Law Department Efficiencies           1,400        900      1,061        161
  Technology Efficiencies               1,918          0          0          0
Long Distance Train Service             2,793        785      1,824      1,039
  Redefining Service Offerings          2,793        785      1,824      1,039
NEC Operations                         16,056      3,192      9,178      5,986
  Fare and Revenue Management          15,000      3,000      8,000      5,000
  Labor Efficiencies                    1,056        192      1,178        986
Total                                 32,362       9,043     18,952      9,909




CC-2006-036                                                                  B-2
  Operational Reforms Not Included in the $586 Million Baseline

  Amtrak has implemented additional operational reforms since our January 2006
  report. Table B-3 presents the reduction in net operating costs from Amtrak’s
  operational reforms not included in the $586 million baseline. These reforms are
  expected to generate $6.9 million in net operating savings for FY 2006. To date,
  Amtrak has reported only $214,000 in net operating cost savings.

            Table B-3: Summary of Reforms Not Included in Baseline
              Year-to-Date through January 2006 ($ in thousands)

Amtrak Net Operating Cost        Estimated      Planned
Savings                           Annual          YTD       Actual YTD    Variance
                                  Benefit       Benefit      Benefit         +/-
Food and Beverage                     4,788          104           104        0
  Simplified Dining                   3,850            0             0        0
  Outsourcing & Contracts               938          104           104        0
Corporate Overhead                    2,129          110           110        0
  Technology Efficiencies             1,629            0             0        0
  Energy Management                     500          110           110        0
Total                                 6,917          214          214         0




  CC-2006-036                                                                 B-3
